                                   SOCIAL SECURITY
MEMORANDUM
Date:   April 30, 2003                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessment of the Social Security Administration’s Performance Measures
        (A-02-02-12050)


        Attached is a copy of our final report. Our objective was to determine whether the
        Social Security Administration’s key programs and activities critical to achieving its
        strategic goals were addressed by its Fiscal Year 2002 performance indicators, and, if
        so, whether those indicators were objective, understandable, and outcome-based.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                          James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   ASSESSMENT OF THE SOCIAL
  SECURITY ADMINISTRATION’S
    PERFORMANCE MEASURES


  April 2003      A-02-02-12050



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE

Our objective was to determine whether the Social Security Administration’s (SSA) key
programs and activities critical to achieving its five strategic goals were addressed by its
Fiscal Year 2002 performance indicators, and, if so, whether those indicators were
objective, understandable, and outcome-based.

BACKGROUND

The Government Performance and Results Act (GPRA) of 1993 seeks to improve the
internal management of the Government, as well as program effectiveness and public
accountability, by promoting a new focus on results, service quality, and customer
satisfaction. The Office of Management and Budget, Congress, and the President have
called for high-quality, outcome-based performance indicators and goals. For example,
the President’s Management Agenda calls for the integration of performance review and
budget formulation. As part of this integration process, agencies are being asked to
“identify high quality outcome measures” that will be used to accurately monitor program
performance.

RESULTS OF REVIEW

SSA has made great strides in meeting the objectives of GPRA and has shown
continued refinements of its performance indicators from year to year. While SSA has
improved the quality of its performance indicators over time, further refinements would
create better indicators. We evaluated SSA's performance indicators to determine
whether they met our criteria for being objective, understandable, and outcome-based.
We found that the Agency's performance indicators are:

   •   objective in all 11 key areas;

   •   understandable in 10 of 11 key areas; and

   •   partially outcome-based in 10 key areas and fully outcome-based in 1 key area.

CONCLUSIONS AND RECOMMENDATIONS
With further refinements, SSA can create indicators that would be more useful in
measuring those key programs and activities where we identified issues. (See
Appendix A for specific suggestions relating to individual performance indicators.)




Assessment of SSA's Performance Measures (A-02-02-12050)                                  i
AGENCY COMMENTS
SSA was pleased that we found the performance indicators for 11 key programs and
activities objective and that we found the indicators for all but 1 key program or activity
understandable. In response to our finding that SSA’s performance indicators were only
partially outcome-based for 10 of the 11 key programs and activities, the Agency stated
it is not necessarily appropriate or feasible to have a majority of its indicators outcome-
based. In response to our recommendations, SSA identified selected workloads for
which efficiency indicators were found to be appropriate. SSA disagreed with several of
our recommendations and stated it met the intent of GPRA in developing high-level,
representative performance indicators—including outcome-based indicators for its major
programs. (See Appendix B for the full text of SSA’s comments.)

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We appreciate SSA’s comments and the continuing dialogue we have had with SSA
staff on measuring SSA’s performance. Through our audit work and the development of
our recommendations, we intended to highlight opportunities for the Agency to improve
the measurement of its key programs and activities. While we agree a balanced set of
measures can include both output and outcome measures, we encourage SSA to
develop additional outcome-based measures—when such measures will provide a
better measure of the Agency’s ability to meet its goals. We do not believe, nor
advocate, that SSA establish efficiency indicators for every discrete workload. Our
report focused on the workloads that are critical to achievement of SSA’s goals. We
continue to believe the implementation of our recommendations would enhance SSA’s
ability to fully measure and communicate on the obtainment of Agency goals. (See
Appendix A for our specific responses to each of those recommendations.)




Assessment of SSA's Performance Measures (A-02-02-12050)                                 ii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

    SSA's Key Programs and Activities ...................................................................4

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

Appendix A – Analysis of the Social Security Administration’s Key Programs and
             Activities and Associated Fiscal Year 2002 Performance Indicators

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments




Assessment of SSA's Performance Measures (A-02-02-12050)
                                                                Acronyms
 APP              Annual Performance Plan
 CDR              Continuing Disability Review
 DDS              Disability Determination Services
 DI               Disability Insurance
 ESF              Earnings Suspense File
 FY               Fiscal Year
 GAO              General Accounting Office
 GPRA             Government Performance and Results Act
 IVT              Interactive Video Teletraining
 MEF              Master Earnings File
 OASDI            Old-Age, Survivors and Disability Insurance
 OASI             Old-Age and Survivors Insurance
 OHA              Office of Hearings and Appeals
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 RSI              Retirement and Survivors Insurance
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 TY               Tax Year




Assessment of SSA's Performance Measures (A-02-02-12050)
                                                                 Introduction
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA) key
programs and activities critical to achieving its five strategic goals were addressed by its
Fiscal Year (FY) 2002 performance indicators, and, if so, whether those indicators were
objective, understandable, and outcome-based.

BACKGROUND

The Government Performance and Results Act (GPRA) of 19931 seeks to improve the
internal management of the Government, as well as program effectiveness and public
accountability, by promoting a new focus on results, service quality, and customer
satisfaction. Specifically, GPRA requires that SSA establish performance indicators to
be used in measuring or assessing the relevant outputs, service levels and outcomes of
each program activity.2

Office of Management and Budget (OMB) guidance states that performance indicators
should inform the President, Congress, other interested parties, and the public of the
expected level of achievement for the program or activity. OMB also indicates that the
performance goals and indicators to be included in an annual performance plan should
be centered on a program’s core purpose and be a blend of outcomes and outputs
supporting outcomes.3

Congress has stated that annual goals should be quantified as outcomes, rather than
outputs. For example, a Senate Committee on Governmental Affairs report4 states
"…agency leaders and managers should, where possible and practical, use outcome-
oriented goals and measures that demonstrate how well a program or activity is doing in
achieving its intended results.”

The President has also indicated the need for outcome-oriented performance indicators
and goals. The President’s Management Agenda calls for the integration of
performance review and budget decisions. “This integration is designed to begin to
produce performance-based budgets starting with the 2003 Budget submission. Over


1
    Public Law No. 103-62 § 2, 107 Stat. 285.
2
    31 U.S.C. § 1115 (a)(4).
3
 Office of Management and Budget Circular A-11, Part 6, Preparation and Submission of Strategic Plans,
Annual Performance Plans, and Annual Program Performance Reports, Section 220-5(a), June 2002.
4
 Report of Senator Fred Thompson, Chairman of the Governmental Affairs Committee, U.S. Senate,
Major Management Challenges Facing Federal Departments and Agencies, Section IV, October 2000.


Assessment of SSA's Performance Measures (A-02-02-12050)                                            1
time, agencies will be expected to identify high quality outcome measures, accurately
monitor the performance of programs, and begin integrating this presentation with
associated cost.”5

A General Accounting Office (GAO) guide6 states that outputs can be defined as the
direct products and services delivered by a program, while outcomes are defined as the
results of those products and services. Outcomes are linked to a program’s overall
mission—the program's reason for existing.

SCOPE AND METHODOLOGY
To assess SSA’s performance indicators and its coverage of the key programs and
activities, we:

•     Reviewed relevant Annual Performance Plan (APP) related documents, including
      SSA's:

      ¾ strategic plan—Mastering the Challenge, Strategic Plan 2000-2005—which sets
        forth and defines SSA’s strategic objectives and related program activities;

      ¾ initial and revised FY 2002 APPs, which define its annual performance indicators
        and goals; and

      ¾ initial FY 2003 APP to note any relevant changes from the revised FY 2002 APP.

•     Reviewed the Office of the Inspector General’s (OIG) FY 2001 and FY 2002 Major
      Management Challenge Statements to determine whether the issues identified had
      adequate performance indicator coverage.

•     Reviewed prior OIG, PricewaterhouseCoopers LLP, and GAO reports related to
      SSA’s performance indicators.

•     Reviewed relevant guidance from OMB, GAO, and academic sources to develop
      criteria for defining objective, understandable, and outcome-based performance
      indicators.

•     Assessed the 84 performance indicators in the revised FY 2002 APP and assigned
      them to 11 key programs and activities that are critical to SSA's delivery of its day-to-
      day services and achievement of its 5 strategic goals (see Appendix A).




5
    Executive Office of the President, OMB, The President’s Management Agenda, FY 2002, p. 29.
6
 The Results Act: An Evaluator’s Guide to Assessing Agency Annual Performance Plans,
GAO/GGD-10.1.20, April 1998.


Assessment of SSA's Performance Measures (A-02-02-12050)                                         2
•   Reviewed each of the 84 performance indicators and associated key programs and
    activities to determine whether the individual indicators met the established criteria
    for being objective, understandable, and outcome-based.

•   Identified key outcomes or results such as accuracy, timeliness, efficiency, or other
    appropriate measures of program performance for which SSA did not have
    performance indicators.

•   Discussed the development of SSA's performance indicators for FYs 2002, 2003
    and 2004 with SSA staff.

•   Determined whether each of the key programs and activities were fully measured
    with regard to program results. A program or activity was determined to be fully
    measured if SSA’s performance indicators addressed all critical elements of that
    program or activity.

•   Identified and commented on opportunities to use outcome-based indicators to
    assist SSA in increasing its focus on program results.

We performed our audit in New York and at SSA Headquarters in Baltimore, Maryland.
We conducted our review between November 2001 and November 2002. The entity
audited was the Office of Strategic Management. Our audit was performed in
accordance with generally accepted government auditing standards.




Assessment of SSA's Performance Measures (A-02-02-12050)                                     3
                                                  Results of Review
SSA has made great strides in meeting GPRA’s objectives and has shown continued
refinement of its performance indicators from year to year. While SSA has improved the
quality of its performance indicators over time, further refinements would create more
results-based indicators. SSA has 11 key programs and activities that are critical to
delivery of its day-to-day services and achievement of its 5 strategic goals and has
performance indicators to measure all of these key areas. We evaluated SSA's
performance indicators to determine whether they met our criteria for being objective,
understandable, and outcome-based. We then determined whether the indicators, as a
group, fully measured the results of SSA’s key programs and activities. We found that
the key programs and activities were covered by performance indicators that are

      •    objective in all 11 key areas,

      •    understandable in 10 of 11 key areas,

      •    partially outcome-based in 10 key areas and fully outcome-based in 1 key area.

SSA's KEY PROGRAMS AND ACTIVITIES

SSA has five strategic goals that, according to its Strategic Plan, are intended to
support its mission “To promote the economic security of the nation’s people through
compassionate and vigilant leadership in shaping and managing America’s social
security programs.”7 The links between SSA's strategic goals and its key programs and
activities are based on SSA's revised FY 2002 APP and are shown in Figure 1.

                    Figure 1: SSA's FY 2002 Strategic Goals and Their Links
                             to SSA's Key Programs and Activities8
               SSA's Strategic                            Key Programs and
                   Goals                                      Activities
          Responsive Programs          Policy Development, Research, and Program Evaluation
          World-Class Service          Enumeration
                                       Claims Processing
                                       Post-entitlement
                                       800-Number Telephone Service
                                       Customer Service
          Program Integrity            Enumeration
                                       Earnings Processing
                                       Combating Fraud, Waste, and Abuse
                                       Debt Management
          Valued Employees             Human Capital
          Public Understanding         Informing the Public About the Social Security Program


7
    SSA, Mastering the Challenge, Strategic Plan 2000-2005, Part IV, page 4.
8
 As per discussion with SSA staff, enumeration addresses both the strategic goals of “World Class
Service” and “Program Integrity.”


Assessment of SSA's Performance Measures (A-02-02-12050)                                            4
In performing our review, we determined whether the indicators, as a group, fully
measured the results of each of SSA's 11 key programs and activities. To that end, we
evaluated all of the performance indicators in SSA’s initial and revised FY 2002 APPs to
determine whether they met each of the three criteria indicated below.

•   Objective - The performance indicator should be measurable, reliable, and verifiable
    with quantifiable goals.

•   Understandable - The performance indicator should be well-defined and clearly
    stated.

•   Outcome-based - The performance indicator should identify and measure the
    intended results, effects, or impact of the program and its goals.

As part of our assessment, we also identified key outcomes or results such as accuracy,
timeliness, efficiency, or other measures of program performance for which SSA did not
have performance indicators.

Our results are listed in Figure 2. Our detailed assessment of the performance
indicators is shown in Appendix A. This assessment takes into consideration SSA’s
significant changes in its performance indicators for FYs 2003 and 2004.

      Figure 2: OIG Assessment of SSA's Performance Measure Coverage of
                            Key Programs and Activities

                                       Were SSA's Key Programs and Activities Covered by
         SSA's Key Programs           Performance Indicators that Met the Following Criteria?
            and Activities
                                    Objective       Understandable          Outcome-Based
          1. Enumeration              Yes              Yes                      Partially
          2. Earnings Processing      Yes              Yes                      Partially
          3. Claims Processing        Yes              Yes                      Partially
          4. Post-entitlement         Yes             Partially                 Partially
          5. 800-Number               Yes              Yes                      Partially
             Telephone Service
          6. Informing the Public     Yes                Yes                      Yes
             About the Social
             Security Program
          7. Combating Fraud,         Yes                Yes                    Partially
             Waste, and Abuse
          8. Debt Management          Yes                Yes                    Partially
          9. Policy Development,      Yes                Yes                    Partially
             Research, and
             Program Evaluation
         10. Human Capital            Yes                Yes                    Partially
         11. Customer Service         Yes                Yes                    Partially




Assessment of SSA's Performance Measures (A-02-02-12050)                                        5
                       SSA's key programs were covered by performance indicators,
Were SSA’s
                       which for the most part, met the criteria for being objective and
Performance
                       understandable. However, we found that the indicators for the
Indicators
                       post-entitlement area were partially understandable. For
Objective and
                       example, the indicators, representative payee actions, Old-Age,
Understandable?
                       Survivors and Disability Insurance (OASDI) post-entitlement
                       automation rates and Supplement Security Income (SSI) post-
entitlement automation rates were not well-defined or clearly stated.

                         SSA's key programs and activities were covered by performance
Were SSA’s
                         indicators that fully measured outcomes in 1 of the 11 key areas
Performance
                         and partially measured outcomes in the remaining 10 areas.
Indicators
                         While we do not expect every performance indicator to be
Outcome-Based?
                         outcome-based, the outcomes of key programs and activities
                         should be measured. Without a balanced set of indicators that
fully measures key outcomes, SSA's performance reporting will not completely
demonstrate whether its key programs and activities accomplish the results intended.
Many of SSA's FY 2002 indicators focused on outputs or numerical workloads—the
number of claims processed, telephone calls answered, clients served, SSNs issued,
etc. Measuring outputs may help demonstrate whether the Agency is complying with
congressional mandates or be useful for internal budgeting purposes. However, such
outputs do not state results, such as a program or activity's accuracy, timeliness,
effectiveness, efficiency, level of customer satisfaction, and/or overall impact. Without
these types of indicators, it is difficult to judge the program or activities’ performance.

For instance, we found the following issues.

•   Enumeration - SSA did not have indicators that measured the efficiency or
    productivity in processing SSN requests. In its initial FY 2002 APP, SSA noted its
    plan to develop efficiency indicators to measure this area. However, the Agency
    subsequently removed these proposed efficiency indicators from its FY 2003 APP.
    An example of an outcome-based performance measure in this area could be an
    indicator that evaluated the integrity of SSA’s enumeration process, such as the
    extent of SSN misuse.

•   Claims Processing - SSA has performance indicators that measure the timeliness
    of initial disability claims processed, but they combine data for the Disability
    Insurance (DI) and Supplemental Security Income (SSI) disability programs. As we
    have noted in a prior report,9 combining the data from both programs does not
    accurately measure the performance of either disability program. SSA also does not
    measure the efficiency of its claims processing. An efficiency indicator could
    measure, for example, the staff time or personnel cost needed to process a claim.
    The initial FY 2002 APP stated that SSA planned to develop accuracy and efficiency
    indicators, which had not yet been defined, to monitor both processes. However,
9
 SSA-OIG, Performance Measurement Review: Reliability of the Data Used to Measure Disability Claims
Processing (A-02-00-10017), November 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                          6
     SSA removed these proposed indicators from its FY 2003 APP. SSA also did not
     have an indicator that measured the overall accuracy of disability payments
     throughout the entire disability determination process.

•    Post-entitlement – Two of nine indicators measuring SSA’s post-entitlement
     activities were fully outcome-based, and two others were partially outcome-based.
     Our review of SSA’s major post-entitlement workloads noted the following.

     ¾ Continuing Disability Reviews - SSA did not have indicators related to the key
       outcome of continuing disability reviews (CDR), such as the percent of accurate
       CDR decisions. The development of an outcome-based indicator would increase
       accountability of the CDR process.

     ¾ Representative Payment Program - SSA did not have any outcome-based
       indicators for its representative payment program. SSA had only one indicator
       for this program—an output measure that counts the number of representative
       payee actions. As we stated in prior reports,10 this indicator is vague and
       combines different types of representative payee activities, resulting in
       ambiguous information. Because the representative payment program is
       vulnerable to fraud and abuse, it is critical that SSA develop effective outcome-
       based measures to better monitor and evaluate the activity's integrity. For
       example, SSA could develop an indicator to measure the number of
       representative payees found in compliance with SSA’s reporting requirements.

     ¾ Non-Disability Redeterminations - As we noted in a prior report,11 SSA had not
       developed outcome-based indicators to measure the results of its
       redetermination workloads. SSA should develop indicators that measure the
       results of this process, such as the dollar amount of over- or underpayments
       made to SSI claimants and the number of claimants properly removed from the
       SSI program as a result of the redetermination process. Although SSA tracks
       such data internally through its annual Index of Dollar Accuracy surveys, it could
       include performance indicators in its APP to report these results. SSA also could
       develop efficiency or productivity indicators to measure the administrative costs
       of performing redeterminations compared to the actual dollar amounts collected
       and/or saved.

•    800-Number Service - Only one of four indicators in this area was intended to
     measure outcomes. This one indicator alone is not sufficient to provide a complete
     measure of the results of SSA’s 800-number service. The remaining three
     performance indicators were output or workload indicators. As we have indicated in
10
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure Representative
Payee Actions (A-02-99-01010), March 2000; and SSA-OIG, Review of the Social Security
Administration's FY 2001 Annual Performance Plan (A-02-00-10038), June 2001.
11
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Number of
Supplemental Security Income Non-Disability Redeterminations Completed (A-02-99-11003),
August 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                        7
     prior reports,12 while workload indicators may be helpful in tracking the volume of
     800-number calls, SSA should develop more meaningful, results-based indicators
     concerning its 800-number service. For example, SSA could develop indicators for
     customer waiting time once connected or whether a caller hung up before being
     served once connected.

•    Debt Management - SSA's performance indicators for debt management were not
     outcome-based. SSA developed two indicators for this area—Outstanding OASDI
     debt in a repayment agreement, under appeal, or newly detected and Outstanding
     SSI debt in repayment agreement, under appeal, or newly detected. However, SSA
     did not define goals for these indicators or measure key results or outcomes, such
     as the amount or percentage of debt actually collected. In its FY 2003 APP, SSA
     modified both of these indicators to measure outstanding OASDI and SSI debt that
     was not in a collection arrangement. These indicators, however, still do not measure
     what should be a key objective of SSA's debt management efforts: the percent of
     SSA's outstanding debt subject to recovery that the Agency actually recovered.
     Also, SSA could develop an indicator measuring the percent of total debt written off
     because it was uncollectible.




12
  SSA-OIG, Review of the Social Security Administration's FY 2000 Annual Performance Plan
(A-02-99-03007), November 1999; SSA-OIG, Review of the Social Security Administration's FY 2001
Annual Performance Plan (A-02-00-10038), June 2001; and SSA-OIG, Performance Measure Review:
Reliability of the Data Used to Report 800-Number Performance (A-02-00-10019), August 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                          8
                                          Conclusions and
                                          Recommendations
SSA has made great strides in meeting the objectives of GPRA and shown continued
refinements of its performance indicators from year to year. While SSA has improved
the quality of its performance indicators over time, further refinements would create
more useful indicators. See Appendix A for our recommendations relating to specific
individual performance indicators. While our recommendations were initially based on
our review of indicators appearing in the revised FY 2002 APP, we have recently been
informed by SSA staff of changes in performance indicators in the draft FY 2004 APP.
Given the changing environment of SSA's performance planning, we took these
changes into consideration when formulating our recommendations. Specifically, we
did not offer recommendations for indicators SSA staff told us would not be included in
the FY 2004 APP.

AGENCY COMMENTS
SSA was pleased that we found the performance indicators for 11 key programs and
activities objective and that we found the indicators for all but 1 key program or activity
understandable. In response to our finding that SSA’s performance indicators were only
partially outcome-based for 10 of the 11 key programs and activities, the Agency
maintained it is not necessarily appropriate or feasible to have a majority of its indicators
outcome-based. In response to our recommendations, SSA identified selected
workloads for which efficiency indicators were found to be appropriate. However, the
Agency maintained it was not the intent of GPRA to have Agencies develop efficiency
indicators or other outcome-based indicators for every discrete workload. SSA
disagreed with several of our recommendations and stated it met the intent of GPRA in
developing high-level, representative performance indicators—including outcome-based
indicators for its major programs. (See Appendix B for the full text of SSA’s comments.)

OIG RESPONSE
We appreciate SSA’s comments and the continuing dialogue we have had with SSA
staff on measuring SSA’s performance. Through our audit work and the development of
our recommendations, we intended to highlight opportunities for the Agency to improve
the measurement of its key programs and activities. While we agree a balanced set of
measures can include both output and outcome measures, we encourage SSA to
develop additional outcome-based measures—when such measures will provide a
better measure of the Agency’s ability to meet its goals. We do not believe, nor
advocate, that SSA establish efficiency indicators for every discrete workload. Our
report focused on the workloads that are critical to achievement of SSA’s goals.




Assessment of SSA's Performance Measures (A-02-02-12050)                                   9
GPRA specifically states its purpose is, in part, to “…improve Federal program
effectiveness and public accountability…” and “…improve congressional decision
making by providing more objective information on achieving statutory objectives and on
the relative effectiveness and efficiency of Federal programs and spending.” We
contend the development of outcome-based and/or efficiency indicators for key
programs and activities is in line with GPRA’s intent, and is a critical step in meeting the
President’s Management Agenda goal of integrating budget and performance. We
continue to believe the implementation of our recommendations would enhance SSA’s
ability to fully measure and communicate on the obtainment of Agency goals. (See
Appendix A for our specific responses to those recommendations.)




Assessment of SSA's Performance Measures (A-02-02-12050)                                 10
                                    Appendices




Assessment of SSA's Performance Measures (A-02-02-12050)
                                                                             Appendix A
Analysis of the Social Security Administration's Key
Programs and Activities and Associated Fiscal Year
2002 Performance Indicators
We have assessed the performance indicators related to each of the Social Security
Administration’s (SSA) 11 key programs and activities. In each area, we provide an overall
Office of the Inspector General (OIG) conclusion. In addition, in those areas where we found
SSA did not meet our criteria, we highlighted either an earlier recommendation to correct this
problem or made a new recommendation. In some areas, while we may have found certain
weaknesses in some performance indicators, we did not make specific recommendations if our
overall conclusion was that the performance indicators adequately measured the key outcomes
for the program or activity. In addition, we did not make recommendations for those
performance indicators that SSA staff informed us would not be included in the Fiscal Year (FY)
2004 Annual Performance Plan (APP).

We evaluated all of the performance indicators in SSA’s initial and revised FY 2002 APPs to
determine whether they met each of the three criteria indicated below.

   •   Objective - The performance indicator should be measurable, reliable, and verifiable
       with quantifiable goals.

   •   Understandable - The performance indicator should be well-defined and clearly stated.

   •   Outcome-based - The performance indicator should identify and measure the intended
       results, effects, or impact of the program and its goals.

As part of our assessment, we also identified key outcomes or results such as accuracy,
timeliness, efficiency, or other measures of program performance for which SSA did not have
performance indicators.

ENUMERATION
OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

The enumeration performance indicators measure accuracy and timeliness. However, these
indicators either had data reliability problems or did not measure all relevant performance data.
Additionally, SSA did not measure the efficiency of its enumeration process, that is, the amount
of personnel time or cost required to process a Social Security number (SSN) request. In its
initial FY 2002 APP, SSA noted its plan to develop efficiency indicators to measure this area.
However, SSA subsequently removed these proposed efficiency indicators from its FY 2003
APP. Further, SSA did not have an indicator to measure the integrity of its enumeration




Assessment of SSA's Performance Measures (A-02-02-12050)                                      A-1
process, despite our identifying SSA's vulnerability to SSN misuse as a major management
challenge. We do recognize that measuring the extent of SSN misuse is difficult and would
welcome an effort by SSA to quantify and measure this area.

We have previously recommended that SSA correct the weaknesses in data reliability identified
for the indicator, Percent of original and replacement SSN cards issued within 5 days of
receiving all necessary documentation,1 and take steps to either include all measurable items in
the indicator, Percent of SSNs issued accurately,2 or clarify those items that are not being
counted in the indicator. SSA has since disclosed in its APPs that SSNs assigned via the
Enumeration-at-Birth process are excluded from this measure.




                                              Understandable
    Performance Indicators                                                             OIG
                                  Objective
    Addressing Enumeration                                                           Comments




                                                                 Outcome
                                                                 -based
SSN requests processed             Yes        Yes                No        The indicator is not outcome-
                                                                           based because it does not
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of SSN requests
                                                                           processed.
Percent of original and          Partially    Yes                Yes       The indicator is partially
replacement SSN cards issued                                               objective because of data
within 5 days of receiving all                                             reliability issues involving the
necessary documentation                                                    accuracy of the performance
                                                                           data.
Percent of SSNs issued             Yes        Yes              Partially   The indicator is partially
accurately                                                                 outcome-based. As we have
                                                                           reported previously, it does not
                                                                           include a significant portion of
                                                                           the SSN population—SSNs
                                                                           issued at birth—about
                                                                           20 percent of the population.

Recommendation 1

SSA should reinstate its plans to establish indicators to measure the efficiency of the
enumeration process, such as the personnel costs of processing SSN requests.

Agency Comment

SSA stated it has established efficiency indicators, and GPRA’s intent was not to have agencies
develop efficiency indicators or other outcome-based measures for every discrete workload.

1
 SSA-OIG, Performance Measure Review: Timely Issuance of Social Security Number Cards
(A-02-97-93003), April 1998.
2
 SSA-OIG, Performance Measure Review: Survey of the Sources of the Social Security Administration's
Performance Measurement Data (A-02-98-01004), November 1999.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                      A-2
OIG Response

We do not believe SSA needs efficiency indicators for every discrete workload. Our report
focused on the workloads that are critical to achieving SSA’s goals, such as the enumeration
process. We continue to believe that a measure of the costs associated with the enumeration
process, such as the cost of production per SSN card, will help the Agency better align its
performance and budget. We recognize SSA’s prerogative in the development of a specific
measure, but continue to believe that an efficiency measure is necessary to enhance the
Agency’s ability to fully measure and manage this critical workload.

EARNINGS PROCESSING

OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

SSA has four performance indicators for Earnings Processing. Three do not fully meet the
outcome-based criteria, and the fourth does not fully meet the understandability criteria. For
example, the indicator, Percent of wage items posted to individuals’ records by September 30th,
did not fully meet our definition of outcome-based because it omitted self-employment earnings.
We have previously recommended that SSA take action to either include all measurable items
in the Percent of wage items posted to individuals’ records by September 30th or clarify which
measurable items were not included in the indicators in future APPs and performance reports.3
The Percent of W-2s filed electronically is a workload indicator and is not outcome-based.

In a previous report on the indicator, Percent of earnings posted correctly, we noted SSA did not
report that it used Tax Year (TY) 1996 earnings data to arrive at the posting accuracy rate and
then applied this rate to the FY 1999 earnings accuracy rate. We recommended that SSA fully
disclose the time period of the source data used in the computation of the accuracy rate in all
future performance reports.4 Further, SSA did not have an indicator to monitor and/or measure
the Earnings Suspense File (ESF), despite our identifying the growth of the ESF as a major
management challenge. We previously recommended that SSA develop performance
indicators to monitor and measure reduction of the ESF’s growth.5




3
 SSA-OIG, Performance Measure Review: Survey of the Sources of the Social Security Administration’s
Performance Measurement Data (A-02-98-01004), November 1999.
4
 SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Accuracy of
Earnings Posted (A-03-00-10004), May 2001.
5
 SSA-OIG, Review of the Social Security Administration’s Fiscal Year 2003 Annual Performance Plan
(A-02-02-12033), January 2003.


Assessment of SSA's Performance Measures (A-02-02-12050)                                            A-3
                                            Understandable
 Performance Indicators
  Addressing Earnings                                                                OIG
       Processing                                                                  Comments




                                Objective




                                                              Outcome
                                                              -based
Percent of employee reports      Yes          Yes              No        This indicator is not outcome-
(W-2s) filed electronically                                              based because it does not
                                                                         measure the results, effects, or
                                                                         impact of the percent of W-2s
                                                                         filed electronically.
Annual earnings items            Yes          Yes              No        The indicator is not outcome-
processed                                                                based because it does not
                                                                         identify and measure the
                                                                         intended results, effects, or
                                                                         impact of the number of annual
                                                                         earnings items processed.
Percent of wage items posted     Yes          Yes            Partially   This indicator is partially
to individuals' records by                                               outcome-based because, as we
September 30th                                                           have previously reported, it omits
                                                                         a key component of the earnings
                                                                         population from measurement:
                                                                         self-employment earnings.
Percent of earnings posted       Yes             No            Yes       This indicator is not
correctly                                                                understandable because, as we
                                                                         have previously reported, it was
                                                                         not accurately defined in the
                                                                         FY 1999 APP. SSA has not yet
                                                                         corrected this problem in the
                                                                         FY 2002 APP. The APP does
                                                                         not disclose that the indicator's
                                                                         calculation is based on wages
                                                                         posted to both the Master
                                                                         Earnings File (MEF) and the
                                                                         ESF. The APP implies,
                                                                         erroneously, that the indicator is
                                                                         based only on earnings posted
                                                                         to the MEF. We also previously
                                                                         reported that SSA did not fully
                                                                         disclose the time period of the
                                                                         source data used in the
                                                                         computation of the accuracy
                                                                         rate.

Recommendation 2

SSA should define performance goals and develop indicators that measure SSA's intended
goals in the earnings area, such as the anticipated improvement in wage processing efficiency
when employee reports (W-2s) are filed electronically.




Assessment of SSA's Performance Measures (A-02-02-12050)                                                A-4
Agency Comment

SSA agreed with Recommendation 2.

CLAIMS PROCESSING

OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

While SSA has developed some outcome-based measures for claims processing in its Old-Age,
Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs,
the performance indicators do not fully measure the results of SSA’s programs and activities in
this area. Our conclusions are discussed below separately for each of the programs and
activities related to claims processing.

OASDI Program

SSA has three performance indicators for the OASDI program, two of which are outcome-
based—measuring accuracy and timeliness. We reported recently that the OASDI accuracy
indicator overstates payment accuracy since SSA counts some overpayments as accurate
when calculating this statistic.6 By definition, SSA excludes certain overpayments from its
accuracy rate measure. For example, SSA does not include payments made after a
beneficiary’s death.
                                                  Understandable




    Performance Indicators
      Addressing Claims                                                                          OIG
          Processing                                                                           Comments
                                      Objective




                                                                   Outcome
                                                                   -based




    Retirement and Survivors            Yes              Yes          No       This indicator is not outcome-based
    Insurance (RSI) claims                                                     because it does not identify and measure
    processed                                                                  the intended results, effects, or impact of the
                                                                               program and its goals.
    Percent of Old-Age and              Yes              Yes          Yes      This indicator is objective, understandable
    Survivors Insurance (OASI)                                                 and outcome-based.
    claims processed by the
    time the first regular
    payment is due or within 14
    days from the effective filing
    date, if later
    Percent of OASDI payment            Yes              Yes       Partially   This indicator is partially outcome-based
    outlays “free” of over (under)                                             because, as we have noted in recent audit
    payments (based on non-                                                    work, it does not count all types of improper
    medical factors of eligibility)                                            payments as “errors.” This results in an
                                                                               overstatement of the OASDI payment
                                                                               accuracy rate.

6
 SSA-OIG, Draft Report: Performance Indicator Audit: Payment Accuracy (A-15-02-11086),
December 2002.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                                  A-5
SSI Program

SSA's performance indicators for the SSI aged program measure accuracy and timeliness. We
reported recently that the SSI program accuracy indicator overstates payment accuracy since
SSA counts some overpayments as accurate when calculating this statistic.7 By definition, SSA
excludes certain overpayments from its accuracy rate measure.




                                                  Understandable
     Performance Indicators
       Addressing Claims                                                                  OIG



                                      Objective




                                                                    Outcome
           Processing                                                                   Comments




                                                                    -based
    SSI aged claims processed          Yes         Yes               No        This indicator is not outcome-
                                                                               based because it does not
                                                                               identify and measure the
                                                                               intended results, effects, or
                                                                               impact of the program and its
                                                                               goals.
    Percent of SSI aged claims         Yes         Yes               Yes       This indicator is objective,
    processed by the time the first                                            understandable and outcome-
    payment is due or within                                                   based.
    14 days of the effective filing
    date, if later
    SSI overpayment and                Yes         Yes             Partially   These indicators are partially
    underpayment accuracy rate                                                 outcome-based because, as
    including both preventable and                                             we have noted in recent audit
    unpreventable errors (based                                                work, they do not count all
    on non-medical factors of                                                  types of overpayments as
    eligibility)                                                               “errors.” This results in an
    SSI overpayment and                Yes         Yes             Partially   overstatement of the SSI
    underpayment accuracy rate                                                 payment accuracy rate.
    excluding unpreventable errors
    (based on non-medical factors
    of eligibility)

Joint Performance Indicators

SSA has two performance indicators that address both of SSA’s programs; however, neither of
these indicators measure outcomes.




7
    Ibid.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                        A-6
                                                 Understandable
     Performance Indicators
       Addressing Claims                                                               OIG
           Processing                                                                Comments




                                     Objective




                                                                  Outcome
                                                                  -based
    Implement activities necessary     Yes        Yes             No        This indicator is not outcome-
    to have the software and                                                based because it does not
    infrastructure in place for                                             identify and measure the
    paperless processing of RSI                                             intended results, effects, or
    and SSI aged claims                                                     impact of the paperless
                                                                            processing activity and its
                                                                            goals.
    Overpayment actions                Yes           No           No        The indicator is not
                                                                            understandable because it is
                                                                            not well-defined or clearly
                                                                            stated. It is not outcome-based
                                                                            because it does not identify and
                                                                            measure the intended results,
                                                                            effects, or impact of
                                                                            overpayment actions.

Disability Insurance and SSI Disability Programs

SSA has several indicators that measure the timeliness of initial claims processing in its
Disability Insurance (DI) and SSI disability programs. However, these indicators are of limited
use because they combine data for both disability programs. Historically, it has taken SSA
different lengths of time to process DI and SSI disability claims. We previously noted this issue
and recommended that SSA develop separate indicators to measure claims processing times of
DI and SSI initial disability claims rather than combining the data for both programs.8 SSA also
does not have an indicator that measures the overall accuracy of disability payment outlays that
would include determinations made at the initial Disability Determination Services (DDS) level,
as well as decisions made at the Office of Hearings and Appeals (OHA) level. We also
previously noted concerns in SSA's method of measuring the timeliness of processing DI
claims.9 Specifically, the indicators did not measure the total time it takes an SSA claimant to
receive a final determination, including decisions reached on appeal.




8
 SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Timeliness of
Processing Supplemental Security Income Disability Claims (A-02-99-11002), December 2000, and
SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure Disability Claims
Processing (A-02-00-10017), November 2001.
9
 SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure Disability
Determination Services Decisional Accuracy (A-07-99-21007), June 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                  A-7
                                             Understandable
 Performance Indicators
   Addressing Claims                                                                        OIG
       Processing                                                                         Comments




                                 Objective




                                                               Outcome
                                                               -based
 Number of initial disability    Yes         Yes                No        This indicator is not outcome-based
 claims processed                                                         because it does not specifically measure
                                                                          the intended results, effects, or impact of
                                                                          the disability claims processing activity and
                                                                          its goals. In particular, the indicator over-
                                                                          consolidates data by combining the
                                                                          number of DI and SSI disability claims
                                                                          processed and does not provide an
                                                                          accurate measure of performance for each
                                                                          of the two programs separately.
 Percent of initial disability   Yes         Yes              Partially   These indicators are partially outcome-
 claims decisions issued                                                  based because, as we have previously
 within                                                                   reported, they combine claims processing
 120 days                                                                 data from both the DI and SSI programs.
 Initial disability claims       Yes         Yes              Partially   This makes what is being measured less
 average processing time                                                  precise.
 (days)
 DDS net allowance               Yes         Yes                Yes       These indicators are objective,
 accuracy rate                                                            understandable, and outcome-based.
 DDS allowance                   Yes         Yes                Yes
 performance accuracy rate
 DDS denial performance          Yes         Yes                Yes
 accuracy rate
 DDS net denial accuracy         Yes         Yes                Yes
 rate
 Implement activities            Yes         Yes                No        This indicator is not outcome-based
 necessary to have the                                                    because it does not identify and measure
 software and infrastructure                                              the intended results, effects, or impact of
 in place for electronic                                                  the electronic disability claims processing
 processing of disability                                                 activity and its goals. Further, it does not
 claims                                                                   track the progress made in implementing
                                                                          the paperless process.
 Initial disability claims       Yes         Yes                No        This indicator is not outcome-based
 pending                                                                  because it does not identify or measure a
                                                                          key intended outcome.

Hearings and Appeals Process

In the hearings and appeals area, SSA has 11 performance indicators, 6 of which measure
results such as timeliness, accuracy, and efficiency. Two of the 11 indicators in this area had
data reliability issues. We have previously recommended that SSA address the data reliability
issues identified concerning performance indicators in the hearings and appeals process.10



10
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Hearing Process
(A-02-98-91003), May 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                          A-8
                                                Understandable
  Performance Indicators
    Addressing Claims                                                                 OIG
        Processing                                                                  Comments




                                    Objective




                                                                 Outcome
                                                                 -based
 Number of hearings processed        Yes         Yes              No       This indicator is not outcome-
                                                                           based because it does not
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of the program and its
                                                                           goals.
 Percent of hearing decisions      Partially     Yes             Yes       These indicators are partially
 issued within 180 days from the                                           objective because the
 date the request is filed                                                 performance data used to
 Hearings average processing       Partially     Yes             Yes       measure the hearing process is
 time (days)                                                               unreliable. The system used to
                                                                           measure performance did not
                                                                           contain all of the hearing
                                                                           requests in the year reviewed
                                                                           and data within the system were
                                                                           incorrect.
 Number of hearings pending          Yes         Yes              No       This indicator is not outcome-
                                                                           based because it does not
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of the program and its
                                                                           goals.
 OHA decisional accuracy rate        Yes         Yes             Yes       This indicator is objective,
                                                                           understandable and outcome-
                                                                           based.
 Implement activities necessary      Yes         Yes              No       This indicator is not outcome-
 to have the software and                                                  based because it does not
 infrastructure in place for                                               identify and measure the
 electronic processing of                                                  intended results, effects, or
 hearings and appeals                                                      impact of the activity and its
                                                                           goals. This indicator does not
                                                                           measure the goal of electronic
                                                                           processing of hearings.
 Number of hearing cases             Yes         Yes             Yes       These indicators are objective,
 processed per workyear                                                    understandable, and outcome-
                                                                           based.
 Percent of decisions on             Yes         Yes             Yes
 appeals of hearings issued by
 the Appeals Council within
 105 days of the appeal filing
 date
 Average processing time for         Yes         Yes             Yes
 decisions on appeals of
 hearings issued (days)
 Number of decisions on              Yes         Yes             Yes
 appeals of hearings issued per
 work year




Assessment of SSA's Performance Measures (A-02-02-12050)                                               A-9
                                               Understandable
  Performance Indicators
    Addressing Claims                                                                 OIG
        Processing                                                                  Comments




                                   Objective




                                                                Outcome
                                                                -based
 Other appellate actions            Yes            No            No       This indicator is not
                                                                          understandable because it is
                                                                          vague and not well-defined. It is
                                                                          not outcome-based because it
                                                                          does not identify and measure
                                                                          intended results, effects, or
                                                                          outcome of appellate actions or
                                                                          goals.

Recommendation 3

SSA should develop additional results-based performance indicators to measure the accuracy
and efficiency of OASI and SSI aged claims processing, as was proposed in its original FY 2002
APP.

Agency Comment

SSA agreed with Recommendation 3.

Recommendation 4

SSA should count all types of improper payments as inaccurate when calculating its OASDI and
SSI program payment accuracy rates.

Agency Comment

SSA deferred responding to Recommendation 4 pending the outcome of the discussion
between the Agency and the Inspector General with respect to the definition of an erroneous
payment.

Recommendation 5

SSA should develop an indicator that measures the overall accuracy of decisions for all DI
payment outlays, which takes into account initial DDS, as well as OHA decisions.

Agency Comment

SSA disagreed with our recommendation. SSA stated that fundamental differences in the
decisionmaking process at the initial claim and appeal levels would result in an inaccurate
measure if the processes were combined in one indicator.




Assessment of SSA's Performance Measures (A-02-02-12050)                                              A-10
OIG Response

We disagree with SSA’s response. A claim is a distinct process with a beginning and an end.
Splitting this process based on different steps the Agency takes for performance measuring
purposes is an artificial distinction. From a claimant’s point of view, a claim that was accurate at
the DDS level, but inaccurate at the OHA level, is an inaccurate claim. While the individual
indicators of accuracy for different processes provide useful information on SSA processes, they
do not provide an overall assessment of the accuracy of disability claims processed by SSA.

Recommendation 6

SSA should develop an indicator that measures the timeliness of DI claims processing so that
the total amount of time it takes an SSA claimant to receive a final decision—including decisions
reached on appeal—is measured.

Agency Comment

SSA agreed with Recommendation 6.

POST-ENTITLEMENT

OIG Conclusion: The performance indicators are objective, partially
understandable, and partially outcome-based.

While the performance indicators for measuring post-entitlement programs were objective, they
were partially understandable for measuring the Representative Payee Program and post-
entitlement automation rates in the OASDI and SSI programs. The performance indicators did
not measure outcomes for Continuing Disability Reviews (CDR), SSI Non-Disability
Redeterminations, the Representative Payee Program, and post-entitlement in the title II and
XVI programs. Our conclusions are discussed below separately for each of the programs and
activities related to post-entitlement workloads.

Continuing Disability Reviews

SSA's CDR performance indicators concentrate mainly on monitoring workloads. SSA does not
have indicators to measure the intended outcomes of CDRs, such as the accuracy of payments
to beneficiaries.
                                       Understandable




   Performance
     Indicators                                                                   OIG
    Addressing                                                                  Comments
                           Objective




                                                        Outcome




  Post-Entitlement
                                                        -based




CDRs processed              Yes         Yes              No       These indicators are not outcome-based
Percent of multi-year       Yes         Yes              No       because they do not identify and
CDR plan completed                                                measure the intended results, effects, or
through FY 2002                                                   impact of the program and its goals.




Assessment of SSA's Performance Measures (A-02-02-12050)                                               A-11
SSI Non-Disability Redeterminations

SSA has one performance indicator for measuring this activity. SSA has not developed an
indicator to measure the cost effectiveness of or the number of ineligible individuals terminated
through its SSI redeterminations. We have previously recommended that SSA develop an
indicator to measure the results of this process, such as the dollar amount of incorrect
payments.11




                                          Understandable
       Performance
        Indicators                                                                   OIG
     Addressing Post-                                                              Comments
                            Objective




                                                           Outcome
       Entitlement




                                                           -based
SSI non-disability       Yes            Yes                 No       This indicator is not outcome-based
redeterminations                                                     because it does not identify and measure
processed                                                            the intended results, effects, or impact of
                                                                     the program and its goals.

Representative Payment Program

For monitoring representative payees, SSA has only one indicator, and it does not measure
results. In addition, we have identified this area as a management challenge—vulnerable to
fraud and abuse. We have identified numerous weaknesses in SSA's oversight of
representative payees, including their selection, monitoring, and accountability.12 We have
reported that SSA should develop measures to report on the Agency’s efforts to screen potential
representative payees and monitor their activities and the extent of representative payee
misuse, although measuring the extent of fraud in this area is difficult.13




11
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Number of
Supplemental Security Income Non-Disability Redeterminations Completed (A-02-99-11003),
August 2002.
12
  SSA-OIG, Inspector General Statement on the Social Security Administration’s Major Management
Challenges for Fiscal Year 2001 (A-02-02-12054), December 2001 and SSA-OIG, Inspector General
Statement on the Social Security Administration’s Major Management Challenges for Fiscal Year 2002
(A-02-03-13034), November 2002.
13
  SSA-OIG, Review of the Social Security Administration's FY 2001 Annual Performance Plan
(A-02-00-10038), June 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                   A-12
                                     Understandable
   Performance
    Indicators                                                                           OIG




                         Objective




                                                      Outcome
 Addressing Post-                                                                      Comments




                                                      -based
    Entitlement

Representative payee     Yes             No            No       The indicator is not understandable because it is not well-
actions                                                         defined or clearly stated. It is not outcome-based because
                                                                it does not identify and measure the specific intended
                                                                results, effects, or impact of the program and its goals. In
                                                                particular, the indicator combines different types of
                                                                representative payee activities. We have noted in a prior
                                                                report that the "…results of the measure are ambiguous
                                                                because the inputs are obtained from such diverse
                                                                activities."14

Post-entitlement in the Title II and XVI Programs

The two indicators in this area are not understandable since it is unclear as to what is included
in the measurements.
                                     Understandable




   Performance
    Indicators                                                                           OIG
                         Objective




 Addressing Post-                                                                      Comments
                                                      Outcome
                                                      -based




    Entitlement


OASDI post-              Yes             No            Yes      These indicators are not understandable because they are
entitlement automation                                          vague and poorly defined.
rate
SSI post-entitlement     Yes             No            Yes
automation rate

Disability/Return to Work Program

SSA has developed three performance indicators in this area, two of which are expressed as
outcomes. However, these indicators do not provide a complete picture of the actual success of
the Return to Work program since they do not measure the percent of DI and SSI disabled
beneficiaries who have returned to work.




14
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure Representative
Payee Actions (A-02-99-01010), March 2000.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                              A-13
                                          Understandable
     Performance
      Indicators                                                                      OIG
   Addressing Post-                                                                 Comments




                              Objective




                                                             Outcome
      Entitlement




                                                             -based
Percent increase in the         Yes       Yes              Partially   These indicators are partially outcome-
number of DI adult worker                                              based. While they measure certain
beneficiaries who begin a                                              immediate outcomes, they do not fully
trial work period                                                      measure the percent of disabled
Percent increase in the         Yes       Yes              Partially   beneficiaries who have returned to
number of SSI disabled                                                 work.
beneficiaries, aged 18-64,
whose payments are
reduced because of work
(that is, participating in
1619(a) status)
Activities to implement         Yes       Yes                No        This indicator is not outcome-based
provisions of the Ticket to                                            because it does not identify and
Work and Self-Sufficiency                                              measure the intended results, effects,
Programs and other                                                     or impact of the program that are being
employment strategies                                                  sought.

Recommendation 7

SSA should, for CDRs, develop more outcome-oriented indicators that measure the key
outcomes of this process, mainly the accuracy of CDR decisions.

Agency Comment

SSA questioned the full extent of Recommendation 7. The Agency stated it will consider
exploring this recommendation if it is limited to "…the accuracy of CDR decisions,” and if the
recommendation is to establish an accuracy standard related to CDR decisions similar to that
for initial claims.

OIG Response

The intent of our recommendation was to establish an accuracy standard related to CDR
decisions, similar to that for initial claims. Therefore, we continue to recommend that SSA
develop an indicator that measures the key outcomes of the CDR process.

Recommendation 8

SSA should, for the representative payment program (a) revise its current indicator to, at a
minimum, separately track representative payee changes and accounting forms; and
(b) develop indicators to measure the integrity of the representative payee process, the extent of
misuse, and/or its efforts to screen and monitor representative payees. For example, an
indicator could measure the percent of representative payee accounting forms found to be in
compliance with SSA’s regulations by implementing a quality assurance review of a sample of
forms.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                A-14
Agency Comment

SSA disagreed with Recommendation 8. The Agency stated it would need more information
about the anticipated benefits of quality assurance reviews of representative payee accounting
forms to determine the feasibility of implementing the recommendation since establishing an
ongoing quality review of this type would be resource intensive.

OIG Response

Our proposed representative payment program performance indicator was only an example to
demonstrate the type of indicator necessary to measure the stewardship of funds managed by
representative payees. We note the Agency reviews fee-for-service payees, organizational
payees serving 100 or more beneficiaries, and individual payees serving 20 or more
beneficiaries on a 3-year cycle. The Agency could develop an indicator that reports the results
of these activities. While we offered a suggestion that SSA could measure accounting form
compliance, we note the Agency’s prerogative to develop a different indicator to measure the
integrity of the representative payment program.

Recommendation 9

SSA should, for OASDI post-entitlement actions, develop indicators to provide more outcome-
based data, such as measuring processing time, accuracy, and efficiency.

Agency Comment

SSA stated it has established efficiency indicators, and GPRA’s intent was not to have agencies
develop efficiency indicators or outcome-based measures for every discrete workload. The
Agency also stated it has established a goal to improve overall productivity by 2 percent each
year.

OIG Response

We note SSA’s progress in developing an overall productivity goal. Measuring overall
productivity from year to year will allow the Agency to see whether it is positioning itself to meet
the challenge of its ever increasing workloads. We continue to believe that efficiency indicators
for critical workloads will serve the same function. For example, a measurement of the costs
incurred and benefits derived per redetermination over time will allow the Agency to see how
well it is managing this critical workload, which helps to ensure SSA is paying the right amount
of payments to its beneficiaries. We recognize SSA’s prerogative in the development of a
specific measure, but continue to believe that an efficiency measure is necessary to enhance
the Agency’s ability to fully measure and manage this critical workload.

Recommendation 10

SSA should, in the return to work area, develop indicators that measure the percent of DI and
SSI disabled beneficiaries who have returned to work.




Assessment of SSA's Performance Measures (A-02-02-12050)                                        A-15
Agency Comment

The Agency stated it is considering two new performance indicators for the proposed FY 2004
APP that better reflect its efforts to return disabled beneficiaries to work: Percent increase in the
number of DI and SSI beneficiaries, with tickets assigned who work and Percent increase in the
number of SSI disabled beneficiaries earning at least $100.00 per month.

OIG Response

We note and are heartened by SSA’s progress in developing performance indicators to better
measure its efforts to return beneficiaries to work. However, we believe that additional
indicators will enhance measurement of the Agency’s ability to help disabled individuals gain
employment. The best measure of SSA’s efforts in this critical area would be to measure the
percent of the individuals receiving disability benefits who the Agency has helped return to
gainful employment. By measuring the “percent increase,” one cannot determine the
percentage of disabled beneficiaries who have returned to work—the goal of return-to-work
efforts. For example, SSA’s current indicators in this area could allow for a 100 percent or
greater improvement in the number of individuals working, while masking the fact that SSA
currently returns less than 1 percent of disabled beneficiaries to work.

800-NUMBER TELEPHONE SERVICE

OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

Only one of four indicators used to measure the performance of SSA's 800-number telephone
service is intended to fully measure outcomes; two other indicators partially measure outcomes;
and one indicator is a workload indicator. While these indicators may help in tracking call
volume and workloads, SSA does not have a sufficient set of indicators to provide a complete
measure of all key outcomes relating to its 800-number service.

We have previously recommended that SSA develop indicators to measure all key results of its
800-number telephone service. We also recommended that SSA consider indicators that would
effectively measure the quality of service received by 800-number callers.15




15
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Report 800-Number
Performance (A-02-00-10019), August 2001.


Assessment of SSA's Performance Measures (A-02-02-12050)                                        A-16
                                             Understandable
 Performance Indicators
 Addressing 800-Number                                                                 OIG
   Telephone Service                                                                 Comments




                                 Objective




                                                                Outcome
                                                                -based
800-number calls handled          Yes         Yes                No        This indicator is not outcome-
                                                                           based because it does not
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of the program and its
                                                                           goals.
Percent of callers who            Yes         Yes              Partially   These indicators are partially
successfully access the                                                    outcome-based. While they
800-number within 5 minutes of                                             measure certain immediate
their first call                                                           outcomes, they do not fully
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of successfully accessing
                                                                           the 800-number. In a prior
                                                                           review, we found that the
                                                                           800-number performance
Percent of callers who get        Yes         Yes              Partially
                                                                           indicators emphasized "access”
through to the 800-number on
                                                                           rather than "service."15
their first attempt
Percent of 800-number calls       Yes         Yes                Yes       This indicator is objective,
handled accurately                                                         understandable and outcome-
                                                                           based.

INFORMING THE PUBLIC ABOUT THE SOCIAL SECURITY PROGRAM

OIG Conclusion: The performance indicators are objective, understandable, and
outcome-based.
                                              Understandable




 Performance Indicators
Addressing Informing the                                                               OIG
 Public about the Social                                                             Comments
                                 Objective




                                                                 Outcome




    Security Program
                                                                 -based




Percent of public who are         Yes          Yes               Yes       These indicators are objective,
knowledgeable about Social                                                 understandable and outcome-
Security issues                                                            based.
Percent of individuals issued     Yes          Yes               Yes
SSA-initiated Social Security
Statements, as required by law




Assessment of SSA's Performance Measures (A-02-02-12050)                                                A-17
COMBATING FRAUD, WASTE, AND ABUSE
OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

SSA has four performance indicators related to reducing fraud, waste, and abuse—three of
which are expressed as outcomes. However, two of the outcome measures, OASDI dollar
amounts reported from investigative activities and SSI dollar amounts reported from
investigative activities, partially measured the major intended results in this area, such as the
dollar amounts collected from investigative activities. We previously recommended that SSA
modify its data collection so it can record and report on the dollars collected as a result of its
investigative activities.16 This type of proposed indicator would be better aligned under the debt
management program area since it measures the collection of debt as opposed to an
investigative or anti-fraud activity.



                                              Understandable
  Performance Indicators                                                               OIG
  Addressing Combating                                                               Comments
 Fraud, Waste, and Abuse
                                  Objective




                                                                Outcome
Number of investigations           Yes         Yes              -based
                                                                 No        This indicator was not outcome-
conducted (that is, closed)                                                based because it does not
                                                                           identify and measure the
                                                                           intended results, effects, or
                                                                           impact of the program and its
                                                                           goals.
OASDI dollar amounts reported      Yes         Yes             Partially   These indicators partially
from investigative activities                                              measure certain outcomes from
                                                                           investigative activities. However,
SSI dollar amounts reported        Yes         Yes             Partially   they do not measure certain key
from investigative activities                                              results in this area such as the
                                                                           dollar amounts collected from
                                                                           investigative activities.
Number of judicial actions         Yes         Yes               Yes       This indicator is objective,
reported                                                                   understandable, and outcome-
                                                                           based.

Recommendation 11

SSA should set-up a process to identify and quantify areas that are more susceptible to fraud,
and establish performance indicators that would help reduce and measure the reduction of fraud
in those areas.




16
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure Anti-Fraud
Performance (A-02-01-11013), January 2002.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                A-18
Agency Comment

SSA disagreed with our recommendation. The Agency stated that, since the total universe of
fraud is unknown, it cannot fully and accurately measure the total amount of fraud or identify the
amount prevented and deterred. Further, SSA stated that measuring progress against an
estimate would be problematic.

OIG Response

Based on the Agency’s response, we revised our original recommendation. We believe that an
appropriate step in addressing fraud would be to establish a process to estimate the amount
and total number of improper payments in areas identified as more susceptible to fraud and
then to take steps and measure progress through the creation of appropriate indicators in
addressing those areas.

DEBT MANAGEMENT
OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

SSA has two indicators to measure this area, but it has not developed goals for either of these
indicators. These indicators are critical because they measure SSA's stewardship of both its
programs. We found that both indicators fail to measure the amount of debt actually collected.
Combining too many different categories of funds also weakens the indicators. SSA does not
have performance indicators dealing with the amount of OASDI debt collected; amount of SSI
debt collected; OASDI debt collected as a percent of outstanding OASDI debt; or SSI debt
collected as a percent of outstanding SSI debt.
                                           Understandable




Performance Indicators
   Addressing Debt                                                                   OIG
     Management                                                                    Comments
                               Objective




                                                             Outcome
                                                             -based




Outstanding OASDI debt          Yes         Yes             Partially   These indicators are partially
not in a collection                                                     outcome-based. While the indicators
arrangement (excluding due                                              identify and measure some aspects
process)                                                                of program results, they do not
Outstanding SSI debt not in     Yes         Yes             Partially   measure the amount of debt actually
a collection arrangement                                                collected or what the amount
(excluding due process)                                                 collected represents in terms of a
                                                                        percentage of the total outstanding
                                                                        debt owed to SSA. SSA modified
                                                                        these indicators in its FY 2003 APP
                                                                        to measure outstanding debt not in a
                                                                        collection arrangement. The revised
                                                                        indicators, however, do not measure
                                                                        the percent of SSA's outstanding
                                                                        debt recovered.




Assessment of SSA's Performance Measures (A-02-02-12050)                                               A-19
Recommendation 12

SSA should clearly establish performance goals that measure the intended results of its debt
management activities, such as the percentage of SSA's outstanding debt the Agency is legally
entitled to collect that is actually recovered.

Recommendation 13

SSA should consider developing an indicator to measure the percent of total debt written off
because it is uncollectible.

Agency Comments

SSA disagreed with Recommendations 12 and 13. SSA stated it had already established clear
debt management performance goals that measure the intended results of its activities. For
example, SSA has two indicators that track the percentage of outstanding OASDI and SSI debt
in a collection arrangement (excluding due process requests). Further, SSA believes its current
debt performance indicators are outcome-based, as they will result in a quantifiable
improvement in its debt management program.

OIG Response

We continue to believe SSA should develop performance indicators that measure the overall
goals of its debt management efforts. The goal of SSA’s debt collection activities is to prevent
overpayments from occurring, and to collect overpayments once they do occur. We do not
believe that a goal of SSA’s debt management efforts is to create payment agreements.
Agreements are only a tool used to collect debt, not a valid measure of the desired results of
SSA’s debt collection activities. Accordingly, we believe SSA’s performance indicators in this
area should guide Agency efforts to limit the amount of growth in improper payments and
reduce the amount of overpayments. These indicators should also guide efforts to increase the
percentage of debt cleared and lower the amount of waivers granted. Specifically, we suggest
that SSA measure the amount of overpayments that occur as a percentage of all payments, the
percentage of overpayments that becomes uncollected debt, the increase/decrease in the
amount of debt collected per total debt, the change in the amount of waivers provided, and the
percent and/or amount of debt outstanding, actually collected, and written off each year.

POLICY DEVELOPMENT, RESEARCH, AND PROGRAM EVALUATION

OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

We have concluded that SSA partially measures results for this program area because it has
two indicators that address such outcomes as timeliness, responsiveness, and customer
satisfaction. However, we have some concerns about a number of the other indicators
SSA has developed in this area—barometer indicators. Barometer indicators are intended to
measure the OASDI and SSI programs' effects on the economic security of recipients and to
help decisionmakers by providing data to guide future research and policy development
concerning both short- and long-term Social Security issues. We believe these indicators are of
limited use as performance indicators because they focus on the conduct of the research itself
rather than the value or impact of the research. While we recognize that policy development


Assessment of SSA's Performance Measures (A-02-02-12050)                                       A-20
and research is a difficult area to measure for results, we believe the conduct of the research
should not itself be the measure of performance—especially if the research is being regularly
performed.




                                             Understandable
Performance Indicators
  Addressing Policy                                                                      OIG
Development, Research,                                                                 Comments




                                 Objective




                                                               Outcome
and Program Evaluation




                                                               -based
Identification, development,      Yes         Yes             Partially   These indicators are partially
and utilization of appropriate                                            outcome-based. While these
barometer measures for                                                    indicators measure immediate
assessing the effectiveness                                               outcomes such as the identification of
of OASDI programs                                                         certain barometer measures or the
Preparation of analyses and       Yes         Yes             Partially   preparation of research, they do not
reports on demographic,                                                   measure the intended results, or
economic, and international                                               impact of the research. The
trends and their effects on                                               indicators only track the completion of
OASDI programs                                                            the research products. In addition,
Preparation of research and       Yes         Yes             Partially   they do not measure the impact,
policy analyses necessary to                                              timeliness, value, or other customer-
assist the Administration and                                             oriented factors of the activities.
Congress in developing
proposals to reform and
modernize the OASDI
programs
Identification, development,      Yes         Yes             Partially
and utilization of barometer
measures for assessing
effectiveness of the SSI
program
Preparation of a report and       Yes         Yes             Partially
completion of data collection
on the National Survey of
SSI Children and Families
Preparation of reports on         Yes         Yes             Partially
results of the National Study
on Health Activity




Assessment of SSA's Performance Measures (A-02-02-12050)                                                 A-21
                                               Understandable
Performance Indicators
  Addressing Policy                                                                        OIG
Development, Research,                                                                   Comments




                                   Objective




                                                                 Outcome
and Program Evaluation




                                                                 -based
Percent of users assigning a        Yes         Yes               Yes       This indicator is objective,
high rating to the quality of                                               understandable and outcome-based.
SSA’s research and analysis
products in terms of
accuracy, reliability,
comprehensiveness, and
responsiveness
Percent of major statistical      Partially     Yes               Yes       While this indicator is understandable
products that are timely                                                    and outcome-based, it is partially
                                                                            objective. We have previously
                                                                            reported that it measures only part of
                                                                            SSA’s statistical products.17
                                                                            Specifically, SSA only measures the
                                                                            timeliness of five publications from
                                                                            one division. The strategic goal
                                                                            relates to all information used by
                                                                            SSA, not just that published by one
                                                                            division.
Preparation of a research           Yes         Yes             Partially   These indicators are partially
design to develop techniques                                                outcome-based. While these
for validating medical listings                                             indicators measure immediate
Preparation of analyses of          Yes         Yes             Partially   outcomes such as the identification of
alternative return-to-work                                                  certain barometer measures or the
strategies                                                                  preparation of research, they do not
                                                                            measure the intended results, or
                                                                            impact of the research. The
                                                                            indicators only track the completion of
                                                                            the research products. In addition,
                                                                            they do not measure the impact,
                                                                            timeliness, value, or other customer-
                                                                            oriented factors of the activities.

Recommendation 14

SSA should reconsider whether to continue to include barometer measures for this program
area in its APP.

Agency Comment

SSA agreed with Recommendation 14.




17
  SSA-OIG, Performance Measure Review: Reliability of the Data Used to Measure the Quality of the
Social Security Administration's Research (A-02-01-11011), March 2002.


Assessment of SSA's Performance Measures (A-02-02-12050)                                                   A-22
HUMAN CAPITAL
OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

Two of SSA’s seven indicators in the human capital area provide outcome-based data.
However, many of the remaining issues in this area are covered by output or milestone
measures that, by themselves, do not provide measurable results to track SSA’s progress in
structuring its workforce for the future.




                                              Understandable
     Performance Indicators
       Addressing Human           Objective                                          OIG
            Capital                                                                Comments




                                                               Outcome
                                                               -based
Increase the retention rate of     Yes         Yes             Yes       This indicator is objective,
new hires                                                                understandable and outcome-
                                                                         based.
Continue to implement the SSA      Yes         Yes              No       This indicator is not outcome-
Future Workforce Plan                                                    based because it does not
                                                                         identify or measure key intended
                                                                         results. In a prior review, we
                                                                         noted that this indicator only
                                                                         describes means and strategies
                                                                         by which SSA intends to
                                                                         implement its Future Workforce
                                                                         Plan and not the goal of these
                                                                         activities.18
Develop, test and implement        Yes         Yes              No       This indicator is not outcome-
desktop video nationally                                                 based because it does not
                                                                         identify or measure key intended
                                                                         results, effects, or the impact of
                                                                         the activity. Further, the
                                                                         indicator does not focus on or
                                                                         measure key aspects of program
                                                                         performance, nor does it
                                                                         measure how this activity is
                                                                         improving the skills of SSA’s staff
                                                                         or its delivery of services.
Percent of offices with direct     Yes         Yes              No       These indicators are not
access to Interactive Video                                              outcome-based because they do
Teletraining (IVT)                                                       not identify and measure the
Number of job enrichment           Yes         Yes              No       intended results, effects, or
opportunities in formal                                                  impact of the program and its
management development                                                   goals.
programs



18
  SSA-OIG, Performance Measure Review: The Social Security Administration’s Transition Planning
(A-02-01-11014), March 2002.


Assessment of SSA's Performance Measures (A-02-02-12050)                                               A-23
                                              Understandable
 Performance Indicators
   Addressing Human                                                                   OIG




                                  Objective
        Capital                                                                     Comments




                                                                Outcome
                                                                -based
Define competencies for            Yes         Yes             Partially   This indicator is partially
technical training and career                                              outcome-based because it does
development and make them                                                  not identify and measure the
available for employee use                                                 intended results or effects of
                                                                           having a workforce with the
                                                                           appropriate competencies or
                                                                           technical training.
Percent of employees, who are      Yes         Yes               Yes       This indicator is objective,
satisfied with overall physical                                            understandable and outcome-
environment, that is, it is                                                based.
professional, accessible, safe
and secure

Recommendation 15

SSA should develop other performance indicators that measure key Human Capital outcomes,
such as the percent of employees with the appropriate competencies and training and the
percent of SSA components that are fully staffed with employees with the necessary knowledge,
skills, and abilities.

Agency Comment

SSA agreed with Recommendation 15.

CUSTOMER SERVICE

OIG Conclusion: The performance indicators are objective and understandable
and partially outcome-based.

We noted a number of customer service issues in which SSA's performance indicators were
either partially outcome-based or not outcome-based at all. However, we concluded that SSA's
performance indicators did measure the key outcomes in this program area and, therefore, we
did not make any recommendations.




Assessment of SSA's Performance Measures (A-02-02-12050)                                              A-24
                                                Understandable
  Performance Indicators
   Addressing Customer                                                                   OIG
         Service                                                                       Comments




                                   Objective




                                                                  Outcome
                                                                  -based
Percent of public with an           Yes          Yes               Yes       These indicators are objective,
appointment waiting                                                          understandable and outcome-
10 minutes or less                                                           based.
Percent of employers rating         Yes          Yes               Yes
SSA’s overall service during
interactions with SSA as
“excellent”
Percent of people who do            Yes          Yes               Yes
business with SSA rating the
overall service as “excellent,”
“very good” or “good”
Percent of people who do            Yes          Yes               Yes
business with SSA rating the
overall service as “excellent”
Percent of employers rating         Yes          Yes               Yes
SSA’s overall service during
interactions with SSA as
“excellent,” “very good” or
“good”
Percent of the public’s             Yes          Yes             Partially   This indicator is partially
interactions with SSA, including                                             outcome-based because it does
citizen-initiated services                                                   not identify and measure the
available either electronically                                              ultimate results, effects, or
via the Internet or through                                                  impact of the program and its
automated telephone service                                                  goals. The indicator does not
                                                                             measure key results, such as
                                                                             usage or the number of people
                                                                             who access each of the specific
                                                                             Internet-based services.
Activities to establish the         Yes        Partially           No        This indicator is partially
capability for the public                                                    understandable because it is
interacting with SSA on the                                                  vague in referring to numerous
Internet to communicate with                                                 plans to implement Internet-
an SSA employee while on-line                                                based activities. It is not
                                                                             outcome-based because it does
                                                                             not identify and measure the
                                                                             intended results, effects, or
                                                                             impact of the program and its
                                                                             goals.




Assessment of SSA's Performance Measures (A-02-02-12050)                                                  A-25
                                              Understandable
 Performance Indicators
  Addressing Customer                                                                OIG
        Service                                                                    Comments




                                  Objective




                                                               Outcome
                                                               -based
Percent of States with which       Yes         Yes              No       These indicators are not
SSA has electronic access to                                             outcome-based because they do
human services and                                                       not identify or measure key
unemployment information                                                 results.
Percent of States with which       Yes         Yes              No
SSA has electronic access to
vital statistics and other
material information
Milestones/deliverables            -----        -----          -----     This proposed indicator has not
demonstrating progress in                                                been defined, so we could not
increasing electronic access to                                          evaluate or comment on it.
information held by other
Federal agencies, financial
institutions and medical
providers




Assessment of SSA's Performance Measures (A-02-02-12050)                                             A-26
                                                           Appendix B

Agency Comments




Assessment of SSA's Performance Measures (A-02-02-12050)
                                         SOCIAL SECURITY


MEMORANDUM                                                                      31297-24-831


Date:      April 8, 2003                                                        Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Measure Review:
           Assessment of the Social Security Administration's Performance Measures"
           (Audit No. A-02-02-12050)—INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           S1J-3:LBell:lb 03/26/03
           IDRIVE: 220020003di
           ICN: 31297-24-831




           Assessment of SSA's Performance Measures (A-02-02-12050)                                   B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE MEASURE REVIEW: ASSESSMENT OF THE SOCIAL
SECURITY ADMINISTRATION'S (SSA) PERFORMANCE MEASURES”
(A-02-02-12050)


We appreciate the opportunity to review and comment on the draft report. We are pleased that
the Inspector General (IG) found that the performance measures for the 11 key programs and
activities were objective and that the performance measures for all but one of the key programs
and activities were determined to be understandable. Regarding the finding that performance
measures were only partially outcome-based in 10 of the 11 key programs and activities, we
maintain that it is not necessarily appropriate or feasible to have a majority of outcome-based
measures. We acknowledge that in our discussions during the exit conference, the IG stated that
this was not their intended message.

The IG recommended that we establish efficiency indicators for a number of program areas. We
have done so for selected workloads, such as productivity for SSI aged claims. However, the
intent of GPRA was not to make Agencies develop efficiency indicators or other outcome-based
measures for every discrete workload. We have followed the intent of GPRA in developing
high-level, representative performance measures, including outcome-based measures, for our
major programs. The Agency has established a goal to improve overall productivity by 2 percent
each year.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should reinstate its plans to establish indicators to measure the efficiency of the
enumeration process, such as the personnel costs of processing Social Security number requests.

SSA Response

We have established efficiency indicators for selected workloads, and as noted above, the intent
of GPRA was not to make Agencies develop efficiency indicators or other outcome-based
measures for every discrete workload.

Recommendation 2

SSA should define performance goals and develop indicators that measure SSA's intended goals
in the earnings area, such as the anticipated improvement in wage processing efficiency when
employee reports (W-2s) are filed electronically.

SSA Response

We agree. The intent behind the earnings measures is to improve the accuracy of earnings
reports so that they can be posted to individual’s earnings records. We continue to track the
percent of employee reports (W-2s) filed electronically. In our proposed FY 2004 Annual
Performance Plan (APP), we are considering two performance measures aimed at reducing the
size of the Earnings Suspense File.

Assessment of SSA's Performance Measures (A-02-02-12050)                                      B-2
Recommendation 3

SSA should develop additional results-based performance indicators to measure the accuracy and
efficiency of Old Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) aged claims processing, as was proposed in the original FY 2002 APP.

SSA Response

We agree in part. Interim efficiency indicators (i.e., cases processed per work year-PPWY) for
SSI aged claims, Disability Determination Service (DDS) cases and SSA hearings cases are
included in our proposed FY 2004 APP as Performance Assessment Rating Tool (PART)
measures. The Agency has established a goal to improve overall productivity by 2 percent each
year. Finally, we will continue to have accuracy measures for both OASDI and SSI benefits in
our proposed FY 2004 APP as follows:

•   Percent of SSI payment free of preventable error (overpayments and underpayments)
•   SSI overpayment and underpayment accuracy rate (including both preventable and
    unpreventable error)
•   Percent OASDI payments free of overpayments and underpayments

Recommendation 4

SSA should count all types of improper payments as inaccurate when calculating its OASDI and
SSI program payment accuracy rates.

SSA Response

We defer responding to this recommendation pending the outcome of the discussions between
the Agency and the Inspector General with respect to the definition of an erroneous payment.

Recommendation 5

SSA should develop an indicator that measures the overall accuracy of decisions for all
Disability Insurance (DI) payment outlays, which takes into account initial DDS, as well as
Office of Hearings and Appeal’s (OHA) decisions.

SSA Response

We disagree. Due to the fundamental differences in the decision making process at the initial
claims and appeals levels, a combined indicator would result in an inaccurate measure. The
separate indicators provide data that is more realistic and useful for managing the disability
program.

Recommendation 6

SSA should develop an indicator that measures the timeliness of DI claims processing so that the
total amount of time it takes an SSA claimant to receive a final decision—including decisions
reached on appeal—is measured.


Assessment of SSA's Performance Measures (A-02-02-12050)                                         B-3
SSA Response

We agree, and have already been discussing a new measure for overall processing time of
disability claims. Unfortunately, we do not currently have the data available to do this. We are
looking into establishing a system that will provide that information.

Recommendation 7

For Continuing Disability Reviews (CDR), SSA should develop more outcome-oriented
indicators that measure the key outcomes of this process, mainly the accuracy of CDR decisions.

SSA Response

We do not agree with this recommendation, as the full extent of it is not clear. We will consider
exploring this recommendation if it is limited to "the accuracy of CDR decisions,” and the
recommendation is to establish an accuracy standard related to CDR decisions (similar to that for
initial claims). However, we would have objections if the recommendation goes further than that
(i.e., the accuracy of the prior allowance or continuance determination).

Recommendation 8

For the representative payment program SSA should (a) revise its current indicator to, at a
minimum, separately track representative payee changes and accounting forms; and (b) develop
indicators to measure the integrity of the representative payee process, the extent of misuse,
and/or its efforts to screen and monitor representative payees. For example, an indicator could
measure the percent of representative payee accounting forms found to be in compliance with
SSA’s regulations by implementing a quality assurance review of a sample of forms.

SSA Response

We disagree. While the indicators to measure the integrity of the representative payee process
could require a subsequent review to ensure we are in compliance with policies and procedures,
currently, we are only required to monitor fee-for-service payees, large organizational payees
serving 100 or more beneficiaries, and individual payees serving 20 or more beneficiaries. These
payees must be fully reviewed once every 3 years. In the past, both SSA and OIG have
completed reviews of the representative payee process and the results of the reviews indicate
misuse of benefits at less than 1 percent of the payees. We would need more information about
the anticipated benefits of such a review in order to determine the feasibility of implementing the
recommendation given that establishing an ongoing quality review of this type would be
resource intensive.

Recommendation 9

For OASDI post-entitlement actions, SSA should develop indicators to provide more outcome-
based data, such as measuring processing time, accuracy, and efficiency.




Assessment of SSA's Performance Measures (A-02-02-12050)                                       B-4
SSA Response

We have established efficiency indicators for selected workloads, and as noted above, the intent
of GPRA was not to make Agencies develop efficiency indicators or other outcome-based
measures for every discrete workload. The Agency has established a goal to improve overall
productivity by 2 percent each year.

Recommendation 10

In the return to work area, SSA should develop indicators that measure the percent of DI and SSI
disabled beneficiaries who have returned to work.

SSA Response

In our proposed FY 2004 APP, we are considering two new performance indicators that better
reflect our efforts to return disabled beneficiaries to work - "percent increase in the number of DI
and SSI beneficiaries, with tickets assigned, who work" and "percent increase in the number of
SSI disabled beneficiaries earning at least $100.00 per month."

Recommendation 11

SSA should define the magnitude of fraud to provide a regulatory baseline from which to
estimate potential dollars lost to fraud. This would significantly improve the indicators and
SSA’s performance reporting of efforts to accomplish its strategic objective to "aggressively
deter, identify, and resolve fraud.”

SSA Response

We disagree. The fact that the Agency does not include a performance indicator to “aggressively
deter, identify, and resolve fraud” in the FY 2004 APP has been frequently discussed including
the issue of quantifying fraud and measuring progress against that baseline. Since the total
universe of fraud is unknown, we cannot fully and accurately measure the total amount of fraud
nor identify the amount we may be preventing and deterring. Measuring progress against such
an estimate is problematic. For example, an increase in identified fraud could mean we were
doing a better job of identifying fraud or a worse job of preventing fraud. Rather than trying to
quantify and measure progress against a moving baseline, we believe our current strategic
objectives for stewardship are measures that focus on the specific program and administrative
areas that may be vulnerable, and allow us to accurately measure progress.

Recommendation 12

SSA should clearly establish performance goals that measure the intended results of its debt
management activities, such as the percentage of SSA's outstanding debt the Agency is legally
entitled to collect that is actually recovered.




Assessment of SSA's Performance Measures (A-02-02-12050)                                         B-5
SSA Response

We disagree. We have already established clear debt management performance goals that
measure intended results of our activities. They include two indicators that track the percentage
of outstanding OASDI and SSI debt in a collection arrangement (excluding due process
requests). The FY 2004 goal for OASDI is 37 percent and the goal for SSI is 55 percent. We
believe our current debt performance indicators are outcome-based, as they will result in a
quantifiable improvement in our debt management program.

We also disagree with the suggested concept of using a percentage of debt that is actually
collected as we have learned through experience that this approach can be flawed. For example,
the percentage of outstanding debt can be negatively affected by successful enterprises and
changes undertaken, such as the change in the annual earnings test several years ago. That
change had the effect of reducing the amount of highly collectable current pay debt, which in
turn prevented us from achieving our former goal of increasing debt collections by 7 percent a
year. Other initiatives, such as debt detection initiatives that uncover hard-to-collect nonpay
debt, can change the mix of our debt portfolio and also thwart our ability to collect a stated
percentage of debt. In that case, we would have done something good--detected debt and
prevented further benefit outlays--but the success would have a negative impact on our
percentage of debt collections.

Recommendation 13

SSA should consider developing an indicator to measure the percent of total debt written off
because it is uncollectible.

SSA Response

We disagree. We believe an indicator based on debt write-offs is inappropriate and unworkable
for the same reasons explained above; i.e., the collectability of debt in an agency's portfolio
constantly changes, thus affecting the amount of debt collections and write-offs. For example, if
an agency has a lot of unproductive debt that is difficult and costly to collect in a particular year,
then write-offs might be higher than average in that year. In that case, it would be inappropriate
to establish an indicator that aims to decrease write-offs. In addition, we note that write-offs are
conditional, and are collected in the future when the debtor becomes reentitled to Social Security
benefits. We also send written-off debts to Treasury for collection by the Treasury Offset
Program (TOP), and to credit repositories such as Equifax and Trans Union.

Rather than establish an indicator, we believe an agency's debt write-offs should emanate from
adhering to the Federal Claims Collection Standards (FCCS), Part 903. Those standards
prescribe the circumstances, which warrant debt write-off; e.g., cost of collection is expected to
exceed the amount recoverable, and we have adopted the provisions of FCCS for our write-off
policy.

Recommendation 14

SSA should reconsider whether to continue to include barometer measures for its Policy
Development, Research, and Program Evaluation program areas in its APP.


Assessment of SSA's Performance Measures (A-02-02-12050)                                           B-6
SSA Response

We agree. Since preparation of the barometer measures is not an end in itself, it has been
discontinued as a performance indicator in FY 2003. We do believe the continued publication of
these measures is an important way of assessing SSA’s effectiveness in achieving its mission--
advancing the economic security of the nation’s people. Recognizing that OASDI and SSI
payments are not the only factors that affect the economic status of the people whom we serve,
the barometer measures provide the best available quantitative indicators of the ultimate
outcomes of the our programs, we will continue to update and publish the barometer measures
internally.

Recommendation 15

SSA should develop other performance indicators that measure key Human Capital outcomes
such as the percent of employees with the appropriate competencies and training and the percent
of SSA components that are fully staffed with employees with the necessary knowledge, skills,
and abilities.

SSA Response

We agree that additional Human Capital outcome measures would be useful. As we continue to
update our Human Capital plans, we carefully evaluate and select the most appropriate
performance indicators for our use. The proposed FY 2004 APP includes the Human Capital
outcome measure: "Percent improvement in retention rate." This is a very important outcome
indicator because it measures the success of our employee training and employee satisfaction
efforts. Our other measures for FY 2004 are milestone indicators that measure our progress as
we evaluate additional outcome measures for the future.




Assessment of SSA's Performance Measures (A-02-02-12050)                                    B-7
                                                                        Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Timothy F. Nee, Deputy Director, (212) 264-5295

Staff Acknowledgments

In addition to those names above:

   Jeffrey Shapiro, Senior Program Analyst

   Stephen Liebman, Senior Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-02-12050.




Assessment of SSA's Performance Measures (A-02-02-12050)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
